Low
\

C@OCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B peti contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-391
JODY LOMBARDO, ET AL.,
Petitioners,
Vv.
CITY OF ST. LOUIS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
RESTORE THE FOURTH, INC. & THE RUTHERFORD INSTITUTE IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2187 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 26th day of October, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY.State of Nebraska
Aen ctmae,| gmk abent enema) Kone. 0. Bowe Qudraw- Be. Chk

My Comm. Exp. Soptember 5, 2023

 

Notary Public Affiant 40260
